                                                                                     NATIONAL SCIENCE FOUNDATION
                                                                                            4201 WILSON BOULEVARD
                                                                                           ARLINGTON, VIRGINIA 22230




                                ,       OFFICEOF
                                    INSPECTOR GENERAL




                              MEMORANDUM

,       .                     Date:                                 March 16, 1998
    .       -. .-....-....-         -. ..........................     . . .      ....                              .... .-
                                                                                                                                . .-


                              To:                                   I970 10005




                              Via:

                              Re:                                   Resolution of case


                              In Tanuarv 1997, I conducted a review of Small Business Innovation Research (SBIR) awards
                              mahe to NSF grantees. During this review, I determined tha q ~ e i a r k'DE,, had
                              possibly received a duplicate SBIR Phase I award from the Department o       ucation (DoEd) as
                                                       the National Institutes of Health (NIH). I referred this matter to S/A
                                                      of the DoEd Office of Inspector General.

                              S/A nd u c t e d an investigation of                          and subsequently filed a
                          criminal information in the Dstrict of Delaware on                The criminal information
                          charged -sole                Principal Investigator,w       t           h applying for and
                          receiving duplicate SBIR projects without making t e proper 'sc osures in the proposal. It
                                                                                                                                                                i
                                                                                                                                                                I



                          further charged t h i v i d e d the same final report to both agencies.

                              On February 17, 1998,                                     ead guilty to one count of 18 U.S.C. 1341, Mail Fraud. He is to   1 1
                              be sentenced on June                                                                                                          1



                                                                                                                                                            I
                              Due to lack of evidence to suggest other violations, further investigation is not warranted at this                           I

                              time. This case is closed.
                                                                                                       '
